No. 19-127

In the Supreme Court of the United States
ANMARIE CALGARO,
Petitioner,
v.
ST. LOUIS COUNTY, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief for Respondent
Fairview Health Services in Opposition contains 2,758 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 22, 2019.
/s/ Paul C. Peterson
PAUL C. PETERSON
Counsel of Record
LIND, JENSEN, SULLIVAN
& PETERSON, P.A.
901 Marquette Ave. S.
Suite 1300
Minneapolis, MN 55402
(612) 333-3637
paul.peterson@lindjensen.com
Counsel for Fairview Health
Services

